<html>
<title> - THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. DEPARTMENT OF THE INTERIOR FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-315]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-315
 
THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. DEPARTMENT OF THE INTERIOR 
                          FOR FISCAL YEAR 2018

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 20, 2017

                               __________
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                               _________ 

                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-075                     WASHINGTON : 2018              
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Public Lands & Natural Resources 
                            Policy Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                                WITNESS

Zinke, Hon. Ryan, Secretary, U.S. Department of the Interior.....     5

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     3
Cassidy, Hon. Bill:
    Chart entitled ``Louisiana's 2017 Draft Coastal Master Plan''    24
    Chart entitled ``Predicted Land Change: Future Without 
      Action/Year 50/Medium Scenario''...........................    26
    Chart entitled ``Predicted Land Change: Future Without 
      Action/Year 50/High Scenario''.............................    27
Heinrich, Hon. Martin:
    Map entitled ``Proposed Acquisition: Rimrock Rose Ranch''....    53
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
San Miguel County (New Mexico) Board of County Commissioners:
    Letter for the Record........................................    42
Theodore Roosevelt Conservation Partnership, et al.:
    Letter for the Record........................................    40
Zinke, Hon. Ryan:
    Opening Statement............................................     5
    Written Testimony............................................     8
    Responses to Questions for the Record........................    59


THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. DEPARTMENT OF THE INTERIOR 
                          FOR FISCAL YEAR 2018

                              ----------                              


                         TUESDAY, JUNE 20, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here this morning to consider the President's budget 
request for the Department of the Interior (DOI) for Fiscal 
Year 2018. This is the second of three budget hearings before 
our Committee this year, following the Forest Service last week 
and the Department of Energy which is coming up on Thursday.
    Secretary Zinke, welcome back to the Committee for your 
first appearance since our bipartisan vote in favor of your 
confirmation on March 1st. It was nice to be able to give you 
the official tally sheet this morning, making it ``officially'' 
official.
    I want to start by noting that you have taken on some tough 
tasks at the Department, including some challenges that really 
have gone unaddressed for years. I think you are off to a good 
start, and I appreciate that.
    I have enjoyed working with you during the early months of 
your tenure as Secretary. I truly appreciated the opportunity 
to host you and some members here on the Committee in Alaska a 
couple weeks ago. We had meetings in Anchorage. We were up on 
the North Slope, looking at our considerable potential up 
there, and we attended a Memorial Day ceremony at the Veteran's 
Memorial at Byers Lake. It was a very important and, I think, a 
very productive time while you were in the state.
    Our hearing today actually coincides with a big milestone 
for Alaska. Today is the 40th anniversary of the first oil 
moving through our Trans-Alaska Pipeline System (TAPS). It was 
on this day back in 1977 that our 800-mile-long pipeline 
carried the first of what is now more than 17 billion barrels 
of oil south to Valdez.
    We had an opportunity while you were in Alaska to be at the 
start of the pipeline--mile zero--along with Senator Barrasso 
and Senator Daines of our Committee and a couple others. I 
believe you saw why Alaskans say that TAPS is not just a 
pipeline, it is truly our economic lifeline. You wasted no time 
signing a Secretarial Order that will help us begin to refill 
that important asset, and your Department's budget request 
includes a number of proposals that will continue to help 
Alaska get back on track.
    The Administration has requested a total of $11.7 billion 
in discretionary appropriations for the Department of the 
Interior in FY18. Overall, that is a reduction of more than $1 
billion from the current level and it is in line with the 
Administration's effort to shift funding to defense needs.
    Know that we are going to be reviewing all of the cuts that 
this budget proposes very, very carefully. I do not expect many 
of them to become a reality, especially those that target 
popular programs, but I will also say that the positives, in my 
view, outweigh the negatives. For every item that many of us 
will not be able to support, there is another one that we can. 
I have not been able to make that statement for quite a while 
now, so it is good to be able to say it.
    A good example is in the Administration's decision to seek 
to end offshore revenue sharing for the Gulf Coast states, 
something that my colleague at the end of the row here is 
clearly engaged on. Like most Alaskans, I want to expand 
revenue sharing rather than end it, so frankly, I do not see 
that proposal going anywhere.
    But it is also clear that the Administration understands 
that we need to strengthen our energy security because I see 
proposals for both a new five-year leasing program which will 
hopefully restore access to Alaska's Arctic Outer Continental 
Shelf (OCS) as well as a proposal to open the non-wilderness 
portion of the Arctic National Wildlife Refuge (ANWR) to 
responsible production.
    I have been asked a couple times in recent weeks, why is 
now the right time to open up the 1002 area? So I want to take 
a moment to explain why, I believe, this is so important for us 
to act on.
    First of all, it is critical to understand that we are 
talking about a part of ANWR that Congress explicitly set aside 
for oil and gas exploration. In 1987, 30 years ago this year, 
the Federal Government recommended it be opened for that 
purpose. Today we are at a place in Alaska where we have the 
highest unemployment rate in the country right now--we need 
more jobs, we have a dire state budget, we need more revenue, 
and with global oil discoveries falling but global demand 
projected to increase, we know that the world is going to need 
more oil.
    So what will opening the 1002 area deliver? By developing 
just about one-ten-thousandth of the refuge, just 2,000 surface 
acres in an area roughly the size of South Carolina, we can 
create those new jobs. We can generate tens of billions of 
dollars of new revenues. We can bring energy online, right when 
we need it, to strengthen our security, strengthen our 
competitiveness. This is something that most Alaskans, more 
than 70 percent, strongly support.
    I also appreciate the Administration taking a deliberative 
and a constructive approach on a potential royalty for hard 
rock minerals. I will be interested to see the results of the 
study that DOI is now conducting. But with our mineral security 
in a perilous state and our nation importing at least 50 
percent of 50 different minerals, our first goal must be to do 
no harm and that is exactly what I see here.
    The Administration's proposal to extend Payment in Lieu of 
Taxes (PILT) is another good sign. I would note, however, that 
PILT should be mandatory and it should not be subject to an 
across-the-board cut, not unless the Federal Government is 
willing to divest some of its lands and allow local governments 
to find alternative means to recoup their lost property tax 
base.
    So again, while I do not agree with everything in this 
request, I think it is better than what we have seen in recent 
years. It does not rely on budget gimmicks; it asks us to look 
for areas where we can cut spending--which we will do; it 
focuses on taking care of the lands that the Federal Government 
already owns rather than continuing to buy more; and it will 
help Western states, particularly Alaska, to increase the 
responsible production of our natural resources.
    So again, Secretary Zinke, I thank you for being here. I 
thank you for the steps that you are taking to help restore 
Alaska's trust in the Department.
    With that, Senator Cantwell, I turn to you for your opening 
remarks.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair.
    This morning we are reviewing the President's proposed 
budget for the Department of the Interior. Overall, President 
Trump's budget is proposing to cut funding at the Department of 
the Interior by $1.8 billion, a 13 percent decrease from 
current fiscal year funding.
    This budget would be devastating to our national parks, 
wildlife refuges and other public lands, and it betrays the 
Secretary's trust responsibility to Native tribes.
    The budget gives us a very clear indication of President 
Trump's and Secretary Zinke's priorities. Unfortunately, these 
priorities put the interests of the fossil fuel industry ahead 
of the public interest by prioritizing onshore and offshore 
development and cutting funds for all other priorities.
    The budget also makes clear the Trump Administration's 
intention to disregard science and undermine conservation.
    Let me run through a few of those low-lights.
    Just one year after our National Park Centennial, this 
budget would cut almost $400 million from the Park Service 
budget. It would result in cutting more than 1,000 full-time 
employees. And according to the Department's own math, ``nearly 
90 percent of parks would reduce their current staffing levels, 
leading to a reduction of services to the public.''
    Secretary Zinke's proposal also uses a budget gimmick to 
try to obscure the fact that it is cutting the Land and Water 
Conservation program by 85 percent, $61 million down from $400 
million. This is our nation's most successful land conservation 
program, which 85 Senators voted to make permanent just last 
year. Suffice it to say, this budget would pump the brakes on a 
booming outdoor recreation economy, all in favor of industries 
that have had trouble competing in today's marketplace.
    Meanwhile, the Administration's war on science is also on 
full display. The U.S. Geological Survey (USGS) would be cut by 
15 percent, or $163 million. We are talking about water and 
climate science. We are also talking about USGS' work on 
natural hazards, including earthquakes and volcano warning 
systems that are vital to public safety.
    Secretary Zinke's proposal would also cut 11 percent, $371 
million, from an already woefully underfunded Bureau of Indian 
Affairs. These cuts would significantly reduce funding for 
tribal education programs and social services. This is 
unacceptable, and it is a betrayal of our trust 
responsibilities to tribes.
    Finally, I suppose I should not be surprised the 
Administration is proposing to open up the Arctic National 
Wildlife Refuge to oil drilling. It has been attempted by every 
Republican President since the 1980s, but that does not mean 
that it is right.
    I know that this will be something that we will have 
continued discussion on, but I think it is also important, 
since this is the first time that Secretary Zinke has been back 
before the Committee since his confirmation, that we raise a 
few other issues.
    My colleague, Senator Murray, and I are particularly 
concerned about your national monument strategy, concerned 
about the Hanford Reach National Monument in the State of 
Washington.
    But it is also clear that there are many other areas.
    It took the Trump Administration less than 100 days to 
launch its unprecedented war on 111 years of bipartisan land 
conservation--which began with President Roosevelt's 
leadership. The most glaring example is an ongoing attack on 
the Antiquities Act in general, and Bears Ears National 
Monument in particular. Trying to roll back Bears Ears is a 
taxpayer waste, especially at a time when the Administration is 
proposing significant staff cutbacks. In my opinion, Secretary 
Zinke's recent decision to propose another management 
designation for Bears Ears is an affront to tribes and the 
Bears Ears Inter-Tribal Coalition. These tribes have spent 
years working to protect these lands. I believe that any action 
by this Administration to undermine the protection for Bears 
Ears or any other national monument is illegal, and I will 
strongly oppose any legislative attempt to weaken this monument 
status.
    Secretary Zinke and the Administration are also attempting 
to unilaterally suspend rules that have already gone into 
effect like the Bureau of Land Management (BLM) Methane Rule. 
Last week, the Department announced its legally dubious 
decision to suspend the Methane and Waste Prevention Rule. This 
is a common-sense rule that implements a 97-year-old 
requirement to prevent waste of federal natural gas. Many 
people here understand that my colleagues in the Senate just 
voted on this recently. But instead of following what the 
United States Senate has said should be done, the Department is 
trying to abandon hundreds of pages of environmental analysis.
    I want to be clear. My colleague, Senator Udall, and I are 
sending you a letter today saying that you must follow the 
Administrative Procedure Act. You cannot just change this rule 
without notice and without comment. You cannot just make up 
your own new regulation without a due process.
    So clearly, we have a lot to discuss today. I look forward 
to hearing the Secretary's statements, but know that these 
important issues of our public lands will be defended and we 
will have an open discussion about our path forward.
    I thank the Chair.
    The Chairman. Thank you, Senator Cantwell.
    We are joined this morning, again, by the Secretary of the 
Interior, the Honorable Ryan Zinke. He is also joined at the 
table this morning by Ms. Olivia Barton Ferriter, who is the 
Deputy Assistant Secretary of Budget, Finance, Performance and 
Acquisition and also Denise Flanagan, Director of Office and 
Budget. It is my understanding that only the Secretary will be 
offering remarks this morning. Is that correct?
    Secretary Zinke. That is correct.
    The Chairman. Mr. Secretary----
    Secretary Zinke. I have some great help though.
    The Chairman. Good help. We appreciate you being here.
    I will note to colleagues that we are scheduled to have two 
votes commencing at 11:00 am. It is my intention to try to just 
keep the Committee moving throughout that. So when the first 
vote is called, you might want to look around the dais and 
figure out when you are up next and plan your timing to go to 
the Floor around that. But I do intend to keep us moving 
because it is my understanding that we will have to conclude 
the hearing this morning at noon.
    Secretary Zinke, if you would like to present the 
President's budget proposal?
    Welcome.

           STATEMENT OF HON. RYAN ZINKE, SECRETARY, 
                U.S. DEPARTMENT OF THE INTERIOR

    Secretary Zinke. Well, thank you, and I am honored to be 
before you today to testify in support of the President's 2018 
budget for the Department of the Interior. I do request 
permission to submit my entire statement for the record.
    The Chairman. It will be included as part of the record.
    Secretary Zinke. The President's budget--this is what a 
balanced budget looks like. I want to repeat that. This is what 
a balanced budget looks like. There are tough decisions 
throughout, but if we want to balance the budget, this is a 
starting point of what a balanced budget would look like--there 
hasn't been one around for a while.
    I fully understand my stewardship responsibilities because 
Interior touches the lives of more Americans than any other 
Department. I am the steward of our greatest treasures, and I 
take that responsibility very seriously.
    The President's budget proposes $11.7 billion and it saves 
the taxpayer about $1.6 billion. We make strategic investments 
to ensure our nation's energy and national security and to 
address the core responsibilities that lie within the 
Department.
    The President's budget prioritizes an all-the-above energy 
strategy. It does not favor oil and gas or coal over any other 
strategy, but we also think it's necessary to have a prudent 
focus on boosting revenue through legislative proposals to 
raise about $5.8 billion.
    And speaking of revenue, in 2008 the Department of the 
Interior made about $18 billion a year in offshore alone. We 
were second only to our friends, the IRS. Last year our revenue 
was $2.6 billion--that's a drop of $15.5 billion a year in 
revenue. So when we talk about infrastructure, the parks are 
about $11.5 billion behind, which represents 73 percent of our 
total gap in maintenance and repair. We would have made up 
that, in scale, in one year with the amount of revenue we 
dropped. So I will be looking at revenue.
    One of my first tasks was a Secretarial Order and, thanks 
to the Ranking Member, I did look at revenues across the board 
and looked at royalties, rents--all the above--giving no 
quarter to gas, oil, wind. If you are going to operate on 
public land, then the public should have a say because we are 
all stewards of our public lands and we want to make sure we 
have a fair return. That return should be transparent and it 
should be trust but verify. So I was pleased one of my first 
acts was to write a Secretarial Order to do just that, look at 
our revenues across the field on public land.
    When it comes to infrastructure, the LWCF, when it's 
removed from the budget proposal, is acquisition of new land. 
Clearly, with an $11.5 billion deficit in maintenance repair, 
the priority must be to take care of what we have. And if you 
doubt that, look at our ability to maintain, I invite you to go 
up and look at Arlington. Arlington is a national disgrace, and 
I'm talking about the building up on top--Lee's home. Through 
neglect the shutters are nearly falling off and the gardens are 
in disrepair. The building itself is a national disgrace. I 
invite you to go up and take a look at it, because we have to 
take care of what we own.
    The budget calls for a $35 million increase for a total of 
$766 million in national park infrastructure. This includes $18 
million for the first phase of repairing the Arlington Memorial 
Bridge.
    Of note, of our $11.5 million backlog in the parks, about 
half are roads, and about a third of those roads are outside 
our parks. There is a $260 million bill on the Memorial Bridge 
and on parkways, access, and gateway roads that are outside of 
what most Americans would think would be a park responsibility.
    For the first time in many years, Payment in Lieu of Taxes 
is part of the discretionary budget. As you may remember last 
year, it was part of mandatory budget that did not pass and it 
was zero. This year it is $397 million and the reduction is 
about the same and the savings is as the other programs. But 
it's in the budget. That's different from last year.
    We fully fund fire suppression at a 10-year average. 
Fighting forest fires, particularly in the West, has become a 
billion-dollar problem. And growing up in the West, investing 
and making sure we remove dead and dying trees in our holdings 
is a prudent expense.
    We also support Indian trust responsibilities with a core 
focus on self-governments, self-determination and sovereignty.
    So we found savings by reducing federal land acquisition, 
eliminating redundant programs and allowing states, local 
communities and private partners to take the lead on some 
others. At the end of the day, this is what a balanced budget 
looks like. There are tough decisions. I fully understand the 
responsibility of the Executive Branch, as well as the 
responsibility of Congress. Congress gets a say, and I am glad 
to be here with you today to go through that.
    I understand there are different priorities within each of 
your states, and I will always work with you to make sure we 
have a budget that represents a great nation.
    I can and will maintain our assets, offer a world class 
experience on public lands and deliver savings to the 
taxpayers, whether it is through public/private partnerships, 
encouraging responsible energy development or reorganizing my 
workforce.
    I am thrilled to be with you today, and I look forward to 
your questions and working together.
    [The prepared statement of Secretary Zinke follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    The Chairman. Thank you, Secretary Zinke.
    Let me start off by bringing up an issue that we have had 
some discussion on both here in Committee and off Committee. 
And this is as it relates to transfer of federal lands to 
states.
    You have often said that you do not support transferring 
federal lands to states, but you have also acknowledged that 
Alaska is unique, that it has some distinctions, and I 
appreciate that.
    When we look to Alaska's lands and what was granted at 
statehood--the right to acquire more than 104 million acres of 
land roughly equal to the size of the state of California--
Alaska Natives were also granted lands to settle Aboriginal 
claims. Today, the Interior Department, through the BLM, 
effectively acts as a real estate agent to accomplish these 
land transfers.
    BLM still needs to finish deciding the fate of 38.4 million 
acres and still needs to survey more than 16 million of our 
state's tentative selections before the patents can be issued; 
our Alaska Native Corporations have another 9.67 million acres 
under adjudication; and about 750,000 acres of tentative 
selections await surveys.
    To my colleagues, this is a lot of land that is yet to be 
conveyed. We have been a state now for over 50 years. The 
promises to our Alaska Native people were made over 40 years 
ago.
    It is something I have pushed through successive 
Administrations and just want to make sure that we are on the 
same page here when it comes to land transfers in Alaska. I 
would ask whether you agree that the Interior Department, 
according to federal law, has a role and an obligation to 
convey federal lands to Alaska and to our Alaska Native people?
    Secretary Zinke. Well, thank you, Madam.
    And Alaska is different, I'm concerned about the surveying 
process--I don't know how long we've been at the surveying 
process.
    The Chairman. Too long.
    Secretary Zinke. But it's too long. So we are working with 
the state to use technology and agree how to use the technology 
so we can get it done. There's----
    The Chairman. That still remains a little bit of a rub, but 
I appreciate that you were updated on that on your visit to 
Alaska.
    Secretary Zinke. And I would like to work with you. There 
are surveys that are in the intermediate process. I don't know 
why we can't go forward and view those as final in the process 
and get that moving.
    You have a veteran issue, Vietnam Veterans. Native Alaskans 
served their country. They were either not informed or did not 
take action with that and how to provide their right on land. 
We've talked. There's multiple ways forward, but we need to get 
it done. So I will work with you and commit to work with you 
and get it done.
    I think the best path forward is a conveyance to agree and 
put a timeframe on it and to sit down and look at the best 
technology in order to get it done. Sometimes the 98 solution--
98 percent solution--today is better than the 100 percent 
solution 15 years from now. And if we both work together, I 
think we can get this done and quickly. Certainly, on the ones 
that have been done on the intermediate, I think we should both 
propose to move to final and get that section of it done.
    The Chairman. Well, know this is something that we need to 
be working on, not only the state lands and the interim 
conveyances that are out there, but again, these allotments to 
our Alaska Native veterans--those lands to those who are termed 
the ``landless Natives.'' There is so much that is yet 
unfulfilled in terms of promises and commitments made to Alaska 
upon statehood and to our Native people, so we need to be 
working to advance them.
    Let me ask very quickly. The Secretarial Order that you 
signed when you were up in the state to help increase energy 
production, again, particularly relevant today in light of the 
40th anniversary of TAPS. Do you have any update for me on the 
implementation of that order, including the revised Integrated 
Activity Plan for the National Petroleum Reserve-Alaska (NPR-A) 
and just where you are with implementation of that Secretarial 
Order?
    Secretary Zinke. I will get the specifics on it, but I 
wanted just to point out on 1002, specifically.
    The Chairman. Yes.
    Secretary Zinke. That was set aside to assess, and my 
responsibility as the Secretary of the Interior is to do just 
that--assess. I don't have the authority to authorize 
production in the ANWR or the 1002. That authority lies within 
Congress. My responsibility is to make sure I assess.
    And as the steward of our public's lands, I think it's 
important to know what our inventory is because decisions being 
made on production levels investment all should be made on the 
basis of science and fact. So my intent is to move forward 
rapidly and assess exactly what assets the taxpayers in this 
great nation have, in the 1002, as was set aside to do just 
that.
    The Chairman. Thank you. We look forward to that. Again, I 
will work with you on getting some kind of an update on the 
other aspects of the plan within NPR-A and other areas.
    Senator Cantwell.
    Senator Cantwell. Thank you and thank you, Secretary Zinke, 
for being here.
    As you know, my state is home to two of the largest 
national parks, Mount Rainier and Olympic. Your proposal would 
cut both parks about seven percent--Mount Rainier would see a 
funding reduction of $881,000, and Olympic National Park a 
reduction of $909,000. So I am trying to understand. These 
parks were already underfunded, and these funding cuts will 
only make the problems worse. Can you explain why you think 
cutting these parks and support functions and park personnel, 
who are on the front lines, is the right strategy in balancing, 
as you say, a budget?
    Secretary Zinke. The infrastructure increased $38 million--
that's not a cut.
    Secondly is our front lines at our parks. Since I've been 
Secretary I have been to, let me make the list--I think I've 
been to Maine, New Hampshire, let's see, Utah, Montana, Alaska, 
Connecticut, I've toured monuments--and it's clear the front 
line is too thin. So my assessment of it for Department of the 
Interior is we have too many middle management and above and 
too few in the parks. So we are looking at going through a 
process, in coordination with you, of how to push more assets 
to the front line. And we've seen it--every cost-cutting 
measure previous to this has always regionalized assets up and 
we find ourselves too short. Where they're needed is in the 
parks.
    And yes, we need more scientists in the field and less 
lawyers, but also, you look at our stacked on the regions, we 
have to--we're too heavy in the regions. And unfortunately, 
that has taken a toll at our parks.
    The best funds for the parks are through the door, tickets 
to the door. We had 330 million visitors through our parks last 
year. Half our parks didn't charge. And we are divided in a 
tier system and many of our parks don't even follow the tier 
system. So we have to look at revenue as well, and public/
private partnerships.
    We're looking at some of our parks on transportation. If 
you go to Yosemite, the Yosemite experience is now going up a 
freeway. Rainier has challenges in your park about the 
experience whether it's on I-5, too much traffic.
    So public/private partnerships, how to move people and how 
to maintain the experience in the park, is important and we're 
looking at everything.
    Senator Cantwell. Well, Mr. Secretary, I find the budget so 
focused on the oil and natural gas aspect of revenue that I 
think that you are neglecting the fact that the outdoor economy 
generates $887 billion a year--$65 billion in federal revenue, 
$59 billion in state and local revenue--that is $124 billion to 
the government. So that versus the $2 billion you are talking 
about or $18 billion, depending on price fluctuations for oil 
and gas. I want to make sure that we are putting pedal to the 
metal as it relates to the outdoor economy and the 
opportunities. That is what is going to generate a lot more 
revenue for us as a government.
    I wanted to ask you on this issue of the BLM Methane Rule 
that we voted on in the Senate to keep the existing rule. Do 
you believe that you are responsible for complying with the 
Administrative Procedure Act?
    Secretary Zinke. I know that we entered into the record the 
notification, and we are following and complying with the law.
    Senator Cantwell. Do you think that public notice and 
comment are an important part of reviewing public regulations?
    Secretary Zinke. We are reviewing the methane. As you know, 
there was a CRA that came close to one vote on it. My position 
on the methane is I think it's----
    Senator Cantwell. So does that mean you are free to do what 
you want just because you think it came close?
    Secretary Zinke. No.
    Senator Cantwell. The rule stands, right?
    Secretary Zinke. That's not what I said, ma'am. What I said 
was my position on the methane, I think it's a waste. And we 
both agree that flaring is a waste.
    So we're looking at the rule in order to make sure that we 
can provide incentives to capture it because as a steward of 
your public lands, and they are your public lands, I think just 
flaring it is waste. We have to make sure that we incentivize 
capture systems and make sure that our isolated assets can 
connect and we make sure that the taxpayer is getting a fair 
valuation on our public holdings.
    Senator Cantwell. So my question to you is, do you believe, 
since that is the law, and now you are proposing to change it, 
do you believe that you have to adhere to the Administrative 
Procedure Act? And that you have to have public notice and 
comment as part of that rulemaking?
    Secretary Zinke. We provided public notice and the public 
notice is now open as it sits right now. And we entered into 
the Register the procedure to begin to change the rule. That is 
within the law.
    Senator Cantwell. So you are going to have a public notice 
and comment period as part of that?
    Secretary Zinke. Absolutely, because I follow the law.
    Senator Cantwell. We will look forward to following up on 
that with you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Cassidy.
    Senator Cassidy. Secretary Zinke, thank you for being with 
us, I appreciate it. In your comments, you mentioned the 
advantage you have growing up in the West and understanding the 
importance of appropriate measures for fire suppression, well 
worth, I think, the $1 billion or so that you are putting 
forward and I, kind of, compliment you for that. What I bring 
up now is my advantage of growing up on the Gulf Coast and kind 
of a lead-in into that.
    Obviously, the budget takes the Gulf of Mexico Energy 
Security Act (GOMESA) payments for the Gulf states for oil and 
gas leasing and the budget states the Administration proposes 
to repeal these revenue sharing payments to ensure that the 
sale of public resources from federal waters owned by all 
Americans benefit all Americans.
    Now, as you know, beginning in 2018, oil and gas revenues 
for Gulf states are set to increase to $375 million with an 
additional $125 million being distributed to the stateside Land 
and Water Conservation Fund. Now what you may not know, which 
of course I do being from Louisiana, in our state these 
revenues are constitutionally required to be put toward coastal 
restoration.
    Again, I was struck that you mentioned that it is a prudent 
approach to remove dead and dying trees and so it justifies, if 
you will, the money for fire suppression--I totally agree with 
that.
    I guess the point I would make is that it is a prudent 
approach to rebuild the Gulf Coast coastline, otherwise we are 
paying for more Katrina-type recoveries. Just a couple comments 
on this though, if you will. The federal role in this--our 
coastline began to erode when the Mississippi River was dammed, 
if you will, levied, for the benefit of inland commerce. All 
those ports up and down the Mississippi benefit because our 
land is levied and since the year those levies began, our 
coastline has begun to recede.
    So the benefit which is nationwide--and I agree it should 
be nationwide--the penalty for that is borne entirely 
environmentally by our state.
    Now, if you will, that is where I would see the federal 
obligation. Let me just show you since I mentioned that the 
land, the money that we receive has to be used for our Coastal 
Master Plan. Can we put the first poster up?
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    This is our Coastal Master Plan--120 projects which would 
reduce flood damage by $150 billion creating 802 miles of land. 
The green space is where the land will be reduced.
    When the hurricanes come toward New Orleans, every mile of 
wetlands lost allows that storm to be that much stronger--
destroying, if you will, levy walls and flooding out homes--
creating obligation for the American taxpayer for that as we 
saw with Katrina. So if we do not have these dollars, this 
cannot happen. When we met before your confirmation you had 
mentioned you had gone to Congressman Scalise's offshore energy 
visits and saw how we used those funds for our restoration.
    We also know that our coastline has refineries and 
pipelines that are the energy coast, if you will, for our state 
so--can we put up charts two and three?
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    This is what is going to happen if we do not take action. 
If we do not have that revenue to rebuild our coastline, this 
is the high-end scenario, 50 years from now, red is the land 
that is lost.
    This is a future medium scenario, that is the worst, this 
is medium. So, even at medium, we can see an incredible 
vulnerability for New Orleans sitting right here, as all these 
wetlands are lost and, therefore, the ability to buffer storms 
hitting our coast.
    By the way, this is all energy coastline so our nation 
depends upon the refineries and pipelines here. The price of 
gasoline rises in the Northeast when our pipelines are put out 
of business by a large storm.
    You have mentioned desiring to be energy secure. That, of 
course, depends upon our offshore revenue and development but 
it also depends upon those pipelines and refineries to take 
that oil and gas. So, my first question. How does removing 
those GOMESA funds away from Louisiana help fulfill that energy 
dominance?
    Secondly, I will say that you have mentioned the need to 
address the debt and deficit. I will point out that if we do 
expand revenue sharing and development off Alaska and the 
Atlantic Coast, which those states are, frankly, incentivized 
to participate in by sharing the revenue with them, we will 
increase revenues for the nation as well as for those states 
and increase the number of good-paying jobs with more people 
paying taxes out of good-paying jobs. So, the second question. 
Would you support legislation that expanded revenue sharing to 
the Atlantic states, Alaska and the rest of the Gulf of Mexico 
if lease sales were scheduled off their coast in the next five-
year plan?
    Secretary Zinke. Well, thank you for your questions. And 
you know, Montana and Louisiana are very similar in that the 
water starts in Montana and makes its way down the Missouri, or 
Mississippi. And I know more about red snapper than I ever 
cared to sitting next to Congressman Graves.
    But I understand exactly what you're talking about on this. 
And the budget does take the tact, and again, this is the first 
step of what a balanced budget would look like. But the budget 
before you looks at a balanced budget in 10 years and where the 
revenues come from. The position of this budget is the revenue 
goes into Treasury.
    Clearly the position of Louisiana is that--that is 
inappropriate. And I understand exactly, well, you know, 
between the differences on it. What I can say is that I'll work 
with you on it, certainly. I understand the importance to 
Louisiana. We think that taking 94 percent of the offshore 
assets offline has had a significant detriment to revenue of 
Interior. And when you have a lot of money, you know, the 
choices become easier.
    But when you drop $15.5 billion a year in revenue, much of 
it from offshore, much of it from the Gulf, some of it from 
Alaska and other holdings, it has a significant, creates a 
significant issue on funding. So, I'll work with you on it, and 
I'd be glad to.
    Senator Cassidy. Sounds good. Thank you.
    The Chairman. Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    Just one note on climate and sea level rise--I think there 
is a relationship.
    Secretary Zinke, welcome. During your confirmation hearing 
you assured members of this Committee that you took tribal 
consultation and sovereignty very seriously, but I have to say 
what I have heard from tribal nations so far is not promising.
    When it comes to the Department of the Interior's status 
review of the Bears Ears National Monument you said that tribes 
are, ``very happy with your recommendation to reduce the 
boundaries of the monument.'' But this really isn't the case.
    The Bears Ears Inter-Tribal Coalition, which represents the 
five local sovereign nations, has been clear in its unanimous 
position to keep Bears Ears National Monument as it is and has 
condemned your recent recommendation stating, ``the radical 
idea of breaking up Bears Ears National Monument is a slap in 
the face to the members of our tribes and an affront to Indian 
people all across the nation.'' That does not sound very happy 
to me.
    Mr. Secretary, you told this Committee that, ``sovereignty 
should mean something.'' You have also said you consulted with 
tribal nations about your recommendation regarding Bears Ears, 
but they all oppose your recommendation. So can you explain how 
your decision respects sovereignty and self-determination?
    Secretary Zinke. Well, thank you.
    I would invite members to go to Bears Ears and look at what 
it is. It's 1.5 million acres, roughly one and a half times the 
size of Glacier National Park. Within Bears Ears, the present 
monument, there's already a monument, there's national forest, 
there are wilderness study areas of 400,000 acres, there's a 
U.S. National Forest, and there's BLM land.
    My assessment after talking to tribes in Washington, DC, 
and tribes there, I met with the Inner Coalition. But also 
there is a distinct difference between the Utah Navajo and the 
Arizona Navajo which should be respected. There's a 
Commissioner in Utah that represents the Utah Navajo which is 
by--she is an elected official that represents her district. So 
the monument itself is split on whether tribes agree, I talked 
to them all.
    Senator Franken. Does she have official representation in 
the tribe?
    Secretary Zinke. She's mandated by Congress as a 
Commissioner and she's elected in her district and represents 
that district which is Navajo, sir.
    Senator Franken. But does she have representation in the 
tribe or no?
    Secretary Zinke. She is the only representation of that 
Utah Navajo in her district. That is actually where the 
monument is. So to say that Commissioner Benally does not have 
a say or the tribes that I talked to, the members of the tribes 
in Utah, all of them have a say. She is not part of the Inter-
Tribal Coalition which I'm not sure why she's not.
    Senator Franken. I am sure that, I mean, you said that the 
tribes are ``very happy'' and the Inter-Tribal Coalition has 
said that breaking up the monument is a ``slap in the face.'' 
Those seem at odds.
    Secretary Zinke. Well, I did talk to the tribes.
    Senator Franken. And you talked to the tribes but you said 
they were very happy--but we have the Bears Ears Inter-Tribal 
Coalition saying that the radical idea of breaking up Bears 
Ears National Monument is a ``slap in the face to the members 
of our tribes and an affront to Indian people all across the 
country.'' Those seem very at odds, those characterizations.
    Secretary Zinke. I know you probably have talked to the 
Navajo, but I have too.
    Senator Franken. No, I have.
    Secretary Zinke. And the northern Utes. And what they 
really want is co-management, above all is co-management.
    But also, Bears Ears--there's a little thing called the law 
and the law says smallest area compatible to protect the 
object. In the case of the 1.5 million acres of Bears Ears, 
those antiquities that are contained in, can be separated, 
identified and the borders can be revised. But I believe it 
should be co-managed and that's what the tribes want.
    Senator Franken. I am not sure that is what the tribes 
want. Madam Chair, I am out of time, but it seems that the 
Inter-Tribal Coalition speaks for what the tribes want more 
than you do and they say that this is a ``slap in the face.'' I 
am sure that the Senator from New Mexico, Senator Heinrich, may 
have something to add here.
    Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Daines.
    Senator Daines. Thank you, Madam Chair, Ranking Member 
Cantwell.
    Secretary Zinke, thanks for being here today and 
congratulations on your first hearing before this Committee 
since your confirmation as Secretary of the Interior. Again, 
the significance of your leadership at the Department to our 
great State of Montana cannot be overstated. I know very well 
that you understand the importance of achieving the balanced 
melody of land use. As we say out in Montana, this blend of 
Merle Haggard and John Denver, that melody, that blend here, as 
we look at our public lands.
    I also understand the critical importance of setting 
priorities within spending constraints. I am happy to see your 
prioritization of energy development. That balance has been 
lacking the past eight years and we know that in Montana, how 
much of our state relies on federal oil, coal and gas for good 
paying jobs and tax revenue that keep many of our rural 
communities afloat that frankly are sinking as we speak. You 
are trying to keep their schools, their teachers, their 
infrastructure funded. However, I remain highly concerned 
regarding the budget's proposed reductions in the PILT program 
and other revenue sharing programs like our wildlife refuges.
    I was just up in your part of the state, up there in 
Columbia Falls, recently. We had some county commissioners, 
Mineral County, Sanders County. We have counties in Montana 
that have over 90 percent owned by the Federal Government. And 
of course, there is no tax base there because the Federal 
Government does not pay taxes. Trying to help these county 
commissioners who are struggling, literally, they are reducing 
their staffing on their road crews. And we have county 
commissioners jumping on graters, plowing snow in the 
wintertime to keep the school buses going because of the lack 
of revenues because we have lost our timber industry on these 
federal lands.
    However, the PILT program, the Payment in Lieu of Taxes, 
because the Federal Government does not pay taxes, are a 
lifeblood for these counties out West. We need to improve the 
land management, but in the meantime we have to provide, I 
believe, full funding for these programs to create certainty 
for our local county budgets.
    Today I also want to ask you about some of these cuts to 
our national parks. I know you are a lifelong neighbor to 
Glacier National Park. I am one to Yellowstone National Park. 
We both know how critical our National Park System is.
    Thank you, Mr. Secretary, for prioritizing the deferred and 
cyclical maintenance in construction accounts in your budget. 
However, the President's budget request proposed cuts of 
$956,000 to Glacier and $2.5 million to Yellowstone in the 
operations accounts.
    I am concerned as we see these national parks receiving 
record levels of visitation. I know we are going to be 
proclaiming the month of June as the Great Outdoors month in 
current visitation. So I am guessing we are going to see 
Glacier Park and Yellowstone Park as having yet another record 
season.
    I believe we do share the goal of strengthening our 
National Park Service for the 21st century. I share your 
commitment to fully addressing maintenance needs on our public 
lands, as you so clearly articulated in your opening statement.
    My question is this: As the Park Service is likely to 
continue receiving high visitation again this year and as we 
share the goal of strengthening our National Park Service, how 
will these cuts in operations funding help ensure the public 
has the sort of experience we all expect from what has been 
called America's best idea?
    Secretary Zinke. Well, thank you for the question. It's 
always a pleasure to work with you.
    First on PILT. PILT, this budget includes $397 million in 
PILT. That is a difference from the last budget, a plus $397 
million to the discretionary side. And I can't tell you what 
the exact amount is going to be because the Secure Rural 
Schools (SRS) still has not been authorized. And it's going to 
be difficult to estimate until that does. But right now, it 
sits in this proposed budget as a 12 percent reduction. And as 
it sits right now, not knowing the certainty of what's going to 
happen to SRS--but it is, unlike the last budget, there's $397 
million in it, I think, which is a good start.
    The parks. Again, I'll go to when you lose $15.5 billion 
worth of revenue it makes a difference. When half our parks 
don't charge, when even the tier system that--many of the parks 
don't follow their own tier system--Interior gives away about 
$5.5 billion worth of grants and a lot of those grants are in 
programs outside of our assets. So I think we had to realign in 
this budget and make sure we fund our core responsibilities.
    The parks are our treasures. I think no one understands 
that more than you and I. But also we are, in my assessment on 
manpower, we are too heavy in middle and upper management. And 
so, to shift those assets forward, we intend to do that in 
working with you in a reorganization that strengthens our core 
parks.
    Senator Daines. Alright, thank you. I am out of time. We 
will see you again tomorrow, I think, at the Appropriations 
Committee. I look forward to exploring other parts of the 
budget request with you then.
    Thanks, Mr. Secretary.
    The Chairman. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Madam Chair.
    Welcome, Secretary Zinke. As you well know we have had 
these conversations. I so appreciate you taking the time with 
me.
    In Nevada, with over 85 percent of public lands in the 
state, many of our rural communities are reliant upon these 
lands for revenue, local recreation economy, livestock grazing, 
and energy development. That is why our relationship with the 
Department of the Interior over the years has been so crucial 
and why it is important that we have a really good working 
relationship. So I appreciate the opportunities that you have 
had to speak with me and look forward to working with you in 
the future as well, including when you come out to take a look.
    I know you are looking at Gold Butte Basin and Range and we 
have had this conversation as well. You know my concerns and 
about the Executive Order and the letter that I have sent to 
you.
    I want to ask you just initially--I know we had discussions 
about you coming out in the fall and when you do come out, will 
you take into consideration the economic benefit and widespread 
support of Nevada's monuments before making a decision?
    Secretary Zinke. Thank you for the question.
    And right now, my schedule has me in July coming out to 
Nevada, Oregon and New Mexico. And the way that I've looked at 
the monuments--one is, does it follow the law? Is it settled? 
Is the community happy with it?
    That's why I talk to local county commissioners and tribal 
leaders and business folks, because I think taking an all-of-
the-above. This is the first time, as well, as 
regulations.com--that the public can have their say outside.
    As you know, a monument designation by the President is 
singular. It does not require NEPA, nor does it require public 
comment. But the President has in his Executive Order, he has 
emphasized public comment and economic development as part of 
that. Yes, ma'am.
    Senator Cortez Masto. Thank you.
    And let me turn now to the Bureau of Reclamation. The 
Fiscal Year 2018 request for the Bureau was $1.1 billion, a cut 
of $209 million. The request proposes cuts for WaterSMART 
grants for water recycling, for re-use projects, for drought 
response and rural water projects.
    The State of Nevada gets the least rainfall of any other 
state in the nation, so we have to be incredibly mindful of 
persistent drought conditions as well as infrastructure 
improvements. Why would the Administration propose cuts for 
successful programs that help Nevada and the West respond to 
drought conditions in innovative ways? I am curious how you are 
going to respond to this.
    Secretary Zinke. Well, I'll go back to this is what a 
balanced budget looks like.
    I agree with you on water reclamation, in particular, from 
a kid who grew up in the West. As you know, there's $18 billion 
in the water reclamation, yet we can't appropriate money onto 
core infrastructure to support rural water.
    I would love to work with you on finding a way to not have 
to go through the stringent appropriation period/process and to 
streamline it and put money where it belongs--on the front line 
each time.
    So the account, you know, sits. I think there's about $20 
billion ``in the account'' in the water reclamation, that's for 
reclamation that has never been appropriated and the same for 
LWCF. I think there is $18 billion ``in the LWCF fund'' that 
was intended for a purpose that was never used for that 
purpose.
    I would love to work with you and I especially would love 
to work with you on rural water projects.
    Senator Cortez Masto. Thank you.
    Then in the Administration's budget there is a proposed 12 
percent cut to the historically-troubled Bureau of Indian 
Education (BIE) serving about 180 BIE schools and about 40,000 
students. The budget also proposes cuts totaling $23.3 million 
for programs that provide social services, welfare assistance, 
and Indian Child Welfare Act protections. How is this budget 
proposal an example of honoring the federal trust obligation 
with the tribes, and can you explain how these cuts will 
endanger these communities, or the challenge that these 
communities will now have?
    Secretary Zinke. Clearly when it comes to Bureau of Indian 
Education, I think we failed. We spend far more money per 
student and get far less in outcome. The statistics I have is 
we spend about $15,391 per student and the Bureau of Education 
compares a national average of under ten.
    So, more money may not produce a better solution, but I'm 
concerned as well as you are because something is not right. I 
am open to working together to figure out a better solution--
how to do it. I am absolutely committed to making sure that 
every kid has a great education, in particular, to some of our 
Indian nations that are isolated. They're already challenged 
with a multitude of social, economic pressures. I'm committed 
to working with you on it.
    Senator Cortez Masto. Thank you. Thank you for being here.
    Senator Barrasso [presiding]. Thank you, Senator.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, Secretary Zinke and others, for being here 
today. I appreciate your service.
    This past weekend I had an opportunity to visit the Junkins 
Fire out in Colorado. It is a fire that has not even been 
declared put out yet. This is a fire that was burning at its 
peak, I guess, last fall. Of course, there is really no active 
firefighting taking place, but you can still see smoke from it 
as the snow trickles into the stumps that are burning and other 
things. It is pretty amazing, the work that is taking place 
there. I thank you for the combined efforts of the BLM and the 
work they did with the Forest Service as well on this fire.
    We talked about the important role of USGS and some of the 
flow gauges that they are going to be working with local 
communities on, just to encourage you to continue that kind of 
cooperation with locals as they address the tree flows from 
fires like the Junkins Fire and how they impact flooding and 
others in the way.
    I will just briefly mention to you the Executive Order 
regarding national monuments and the review--13792. We wrote a 
letter to you earlier this year talking about the Canyons of 
the Ancients National Monument and in it we said, ``Canyons is 
an example of what the Antiquities Act was intended to do, 
protect cultural treasures while incorporating the historic use 
of the land and the management of the monument so that 
communities support and promote the designation.'' That is what 
has happened in Colorado with the Canyons of the Ancients 
National Monument. So I would urge you to protect this 
designation in Colorado as it stands. Is there an update at all 
on Canyons of the Ancients National Monument in Colorado?
    Secretary Zinke. There is--it's currently not on our 
priority review list.
    Let me just say a word because I think Bears Ears is 
relevant in this case. What the recommendation on Bears Ears 
was this. There was a recommendation to resize the boundary in 
order to protect the antiquities that are found within it 
because it does say smallest area compatible with protection of 
the object. But there are certain authorities the President 
simply does not have that we're going to request that Congress 
take a look at. There are lands within the Bears Ears that we 
think might be more appropriate as a national recreation area 
or a national conservation area because there is no object, per 
se, but that authority resides in Congress and not the 
Executive.
    We also looked at about 400,000 acres in the Bears Ears 
which is wilderness study area. So when you put a monument over 
the top of a wilderness and that monument has its proclamation, 
do you manage it as a wilderness or a proclamation because in 
some cases a wilderness is actually held to a stricter and 
higher standard of what you can and cannot do in a wilderness. 
So we're asking Congress to take a look at that.
    In cases across the West, there might be some monuments 
that have a wilderness or wilderness study group. We're asking 
what the intent of Congress was on those. Do you manage it as 
wilderness or a proclamation? Co-management was a part of it. 
We don't have the authority to grant co-management. Above all, 
the tribes want co-management, but I don't have the authority 
nor does the President have the authority to grant it. That was 
part of it too.
    Senator Gardner. Well, thank you, Mr. Secretary. I 
appreciate the fact that the Canyons of the Ancients National 
Monument is not on the priority list, and I hope that 
eventually you will clear up the fact that it is going to 
remain as is.
    During your confirmation hearing we discussed the 
possibility of moving the BLM Headquarters to the Western 
United States because it makes sense to do that with an agency 
that is 99.9 percent public lands that are under its management 
West of the Mississippi River.
    Since your confirmation I have introduced legislation that 
would do just that--direct the Department to submit to Congress 
a strategy involving certain metrics for moving the BLM West. 
The legislation has bipartisan support. Back home, Governor 
Hickenlooper and the Mayor of Denver support the effort; at 
least they have made public comments in support of it.
    Mr. Secretary, given your goal to move some of your 
Department to the front lines, out into the West, how can 
Congress best assist you in this goal to relocate the BLM 
Headquarters?
    Secretary Zinke. Well, we're looking at doing a 
reorganization of Interior, and we're going to need you, quite 
frankly, your help.
    The way we're organized currently is all the different 
bureaus report to their different regions and we're not very 
good at joint operations. So we're looking at appropriately 
moving assets where they should be.
    When I say joint, if you have a stream that has a trout and 
a salmon in the same stream, you're going to probably involve 
NOAA through NMFS, Fish and Wildlife, because we're going to 
look at the trout and NOAA is going to look at the salmon. If 
you irrigate out of it, it's probably the Bureau of 
Reclamation, and if you have a dam, it's probably the Army 
Corps of Engineers. There are four different bureaus and if it 
crosses tribal land you're probably going to have BIA in it. 
You could have actually four different bureaus that have 
different priorities. In order to come up with a plan, you're 
not going to have--the plan won't be reconciled between the 
bureaus. So we're going to have to look at how to be more joint 
and a lot of that is putting the assets where the preponderance 
of, in the case of BLM, the preponderance of land and BLM is 
out West. We are looking at reorganizing to do just that, to 
push the assets where they should be.
    Senator Gardner. Well, thank you, Mr. Secretary. I know I 
am out of time here, but we will have questions to follow up on 
an Arkansas Valley Conduit issue as well as continued funding 
and support for Land and Water Conservation Fund.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Gardner.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank you, Secretary, for being here.
    First of all, there are a couple things I want to go over. 
West Virginia is a little bit different from being out West, 
but we are still wild and wonderful.
    Secretary Zinke. I consider you out West, sir.
    [Laughter.]
    Senator Manchin. First of all, you have covered the Payment 
in Lieu of Taxes program and that is very important for our 
state; some of our rural counties really depend on it. The 
reduction hits them very, very hard.
    First of all, on the coal, you all have been very 
supportive of the coal industry and the people that do this 
tremendous work for the people of this country. I am confused a 
little bit as to why the President's Budget for 2018 proposed 
$134 million in payments to the United Mine Workers of America 
from the Health Benefit Plans from the Treasury. Those are 
coming from the money distributed from Office of Surface Mining 
Reclamation and Enforcement. That is a $45 million reduction 
from 2016.
    We just passed a piece of legislation, put 22,000 miners in 
the 1993 fund. We are going to be in serious problems here 
because that AML distribution for the Abandoned Mine Land 
monies and the Treasury--I don't know if you all have looked at 
that, or what challenges it might cause for you.
    Secretary Zinke. We did, sir, and I'll go back. This is a 
starting point.
    Senator Manchin. Okay.
    Secretary Zinke. Chairman Rogers of the House side, you 
know, also is----
    Senator Manchin. Hal watches it very closely.
    Secretary Zinke. ----very focused----
    Senator Manchin. Yes.
    Secretary Zinke. ----on this issue and when I say, I look 
forward to working with you on it, but I understand, certainly, 
the rub.
    Senator Manchin. You see the concern we have right now 
being able to meet the demands that we have.
    Secretary Zinke. I do and I've long respected Chairman 
Rogers and I think he does a great job.
    Senator Manchin. Well, if you will work with us on that and 
make sure that our miners do not get shortchanged, I would be 
very appreciative. We are going to be working together with you 
on that.
    Let me go over to something as far as our national forests. 
I am told that 50 percent of our nation's forests are privately 
owned, but over 90 percent of the timber for our country comes 
from that 50 percent. That means that the remainder of the 
properties that we have in national forests, public lands, 
about 10 percent comes from them.
    Why are we not able to harvest or look at harvesting, 
financially, especially, because we are losing a lot of the 
forests from maturing and falling and strike spikes by 
lightning and things of this sort. I think we could do a much 
better job of managing our forests, also protecting the 
forests, but also having the revenue that would come from it. 
Just the three percent comes from the national forest in West 
Virginia. That provides about 43,000 jobs.
    Secretary Zinke. I could not agree with you more, sir. It 
has been an area of frustration before I was in Congress. The 
Forest Service, alone, has about 71 million acres of dead and 
dying timber that should be removed. We spend billions of 
dollars each year fighting forest fires and we can't harvest 
trees.
    In our holdings, only a small percentage is actually 
available for timber harvest because it's locked up in either 
habitat, the Spotted Owl, or a different species. And so, our 
ability to even go forward on a sustainable yield basis, we're 
going to need some help legislatively to work through it.
    There's a case that we're watching closely in the Ninth 
Circuit that looks at the different balance between the 
legislative intent on sustainable yield vice habitat and other 
things. But we're looking at it and my commitment is to make 
sure we have a healthy forest. And a healthy forest is making 
sure that we are at sustainable, or as close as we can, and 
remove the dead and dying timber and have a healthy industry.
    Senator Manchin. Do people just defy the accuracy or the 
logic of this that do not want anything touched in these areas, 
and these are pristine areas, I understand. But still yet, if I 
am going to preserve a pristine area, I am going to make sure 
that we are able to allow it to flourish and grow and dying 
timber does absolutely the opposite.
    Secretary Zinke. Well, we live in a great nation of a lot 
of opinions.
    [Laughter.]
    And there are some that believe in the theory of natural 
regulation more than a mirror model where man is an observer 
and the lightest footprint. And they're more than content of 
watching our forests burn down year after year.
    I sit on the Pinchot model of using science and multiple 
use for most of our holdings, which includes timber harvest. 
But you have to do it right and there have been mistakes in the 
past, but we have great people that know how to harvest timber.
    Senator Manchin. My final thing, real quick, my time is 
running out, is the AML, the Abandoned Mine Lands, again the 
funds--what we are using them for and the purpose. A lot of 
that was basically for revitalizing the Power Plus Plan. It was 
to revitalize some of these areas that lost so much and the 
President's budget proposes eliminating the Abandoned Mine 
Lands Economic Development Pilot Program. I would hope you 
would look at that, sir, before you all make that step because 
these communities that gave so much to this great country need 
a little bit of assistance to get back up on their feet, and 
eliminating that would be very harmful to them.
    Secretary Zinke. My commitment is to work with you on that, 
and Chairman Rogers also talked to me, point blank, on that one 
too and I respect him.
    But most of all it will affect jobs and I respect hard-
working people, whether it's coal or logging or just people 
putting things together and the manufacturing industry. I come 
from three generations of plumbers. I just like people that 
work and so does the President.
    Senator Manchin. Thank you, sir.
    The Chairman [presiding]. Thank you, Senator.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Secretary Zinke, it is great to be with you again, great to 
see you. I was singing your praises along with that of Senator 
Daines, as well as our friend Ryan Lance at both Boys State and 
Girls State in Wyoming in the past week because there you 
were--three young high school students from Montana sitting 
together at Boys State. That is the aspiration for young people 
at Boys State and Girls State all across the country can look 
to you, as well as Senator Daines, as well as Ryan as something 
to look up to and work for.
    Secretary Zinke. I have to say, I was the slacker of the 
three.
    [Laughter.]
    Senator Barrasso. Well, you and I have spoken in the past 
about the Bureau of Land Management and the backlog of 
applications for permits to drill for oil and gas on federal 
land. We discussed that permitting delays vary among field 
offices. Some of the offices are having much more substantial 
backlogs than others. Oil and gas permitting delays directly 
threaten our energy security. They threaten American jobs and 
economic stability in small communities.
    The Department's budget proposal includes a $16 million 
increase for the BLM program that is responsible for processing 
oil and gas drilling permits. The budget proposal states that 
this funding increase will ``help ensure BLM has sufficient 
administrative staff capacity to quickly process applications 
for permits to drill.'' I am encouraged by your proposal.
    BLM needs to have the necessary resources at its disposal 
to process the oil and gas permits in a timely manner yet we 
must ensure that it allocates its resources to field offices 
greatest in need, such as the field office that we certainly 
have in Casper, Wyoming.
    What steps are you going to take to ensure that the BLM 
field offices have the resources they need to relieve some of 
these significant backlogs of the permit applications?
    Secretary Zinke. Well I would say the backlog is really 
two-pronged. One is the resources, but also the process. We 
want to make sure the process is fair and not arbitrary and 
holds people accountable. I think we all agree with that. But 
if it can go into these loops where all of a sudden you can't 
get an answer for 18 months, two years, you don't have any 
chance to actually talk to the individual that's doing it or it 
can be pigeon-holed--there's a problem. I would think in 45 
days, given where some of the fields are, you should have a 
feeling whether that permit is going to be authorized or not or 
whether it can be mitigated.
    So a lot of it is restoring trust in our system, that we're 
going to do what the public expects us to do, is do a review. 
The review should be straightforward, trust but verify, make 
sure their permit process is not arbitrary. And we should work 
with people and be more of a partner than, in some cases, an 
adversary.
    That's a tall order given that a lot of the government or a 
lot of the folks out there, whether it's industry or private 
landowners, don't trust the Department of the Interior. And my 
number one job is to get back there and talk to communities and 
be an advocate and restore trust.
    Senator Barrasso. You know, the Department is facing 
several billion-dollar issues which are going to require 
prioritization and management well into the future, beyond the 
upcoming fiscal years. Issues like wild horse and burro 
management, wildfire funding which you described in your 
opening statement as a billion-dollar problem, and deferred 
maintenance costs that cost the Department billions. And they 
are not going to be solved overnight. This is not just a budget 
problem proposal--this is a proposal for one year that you are 
talking about today, to what extent are you examining the long-
term needs and the issues that are going to require multi-year 
planning, like the National Park Service's deferred maintenance 
backlog?
    Secretary Zinke. Well, we're looking at long-term funding. 
You know, obviously, when you drop $15.5 billion a year, we 
could have caught up on our maintenance, but we don't want to 
go up and down. We want a steady stream. And there's certainly 
opportunities on onshore, new revenue to commit against a 
stable platform of maintenance repair in the out years.
    It was mentioned earlier that we had 330 million visitors 
through our park system last year. We think that's going to 
increase, and so now we have to look at the public lands around 
our parks to make sure things like the trail systems connect, 
watersheds make sense, wildlife corridors connect. Those are 
going to take resources to do that and having a steady fund of 
resources come in to put against our infrastructure is part of 
it. So we are looking at long-term fixes and that will be part 
of, as I understand, the infrastructure bill.
    Senator Barrasso. My final question refers to the Bureau of 
Indian Education. You made some comments about it earlier to 
one of the other questions--that we have failed, something is 
not right, committed to making sure that the education process 
is there. As we go forward, I hope that you continue to work 
closely with tribes, with the Bureau of Indian Education and 
Congress to make sure that the money is used most effectively 
because, as you say, there is a lot of room for improvement.
    Secretary Zinke. Well and one comment about Indian 
education. It's different. You have dorms. You have, in some 
cases, security. So just the funding mechanisms, so just to say 
that we're--that it's more expensive is a little bit deceiving 
in that it's not the same as a public school in some cases.
    But it's certainly a priority of mine to make sure that the 
education experience and the opportunity for a child is 
elevated and highlighted and prioritized but it's going to take 
both of us working together and probably giving more 
flexibility up front to the tribes so that they can look at 
their issue and cater a more flexible approach.
    Senator Barrasso. Thank you, Mr. Secretary.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Senator Heinrich.
    Senator Heinrich. Secretary Zinke, you and I recently 
talked about a plan that sportsmen in New Mexico have promoted 
to provide public access to the only legally inaccessible 
wilderness area in the entire nation. For the very first time 
this year we have the potential to have access to that area.
    Since 2009 when the Sabinoso Wilderness was designated, and 
long before then, actually, when it was a wilderness study 
area, this area has been closed to the public with no legal 
ingress. We have an opportunity to change that with a piece of 
an agreement that is literally sitting in your lap in time for 
this year's hunting season. I have heard from local sportsmen's 
groups as well as the San Miguel County Commission in support 
of this plan, and I am literally getting calls each and every 
day from folks wondering when a decision will be final.
    I have letters here from Backcountry Hunters and Anglers, 
the Theodore Roosevelt Conservation Partnership, Southwest 
Consolidated Sportsmen, the local chapter of Sportsmen Concern, 
the Wild Turkey Sportsmen's Association and the San Miguel 
County Commission--the list just, kind of, goes on and on.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    We are finally at the finish line in an effort that has 
taken well over a decade. Can I go back and tell New Mexicans 
that they can look forward to hunting in the Sabinoso 
Wilderness this year?
    Secretary Zinke. You and I talked about it, that the 
proposal was, and we both agree, public access--the Interior 
would strongly consider taking it under in public lands. It 
is--the status of the land----
    Senator Heinrich. It is a donation, not a----
    Secretary Zinke. It's a donation, alright, but it doesn't 
meet the standard of what a wilderness typically is, but if we 
can, and I'll work with you because we both agree this is a 
unique opportunity, we both agree that we should have public 
access. I think where the rub is, is that we take it in as 
wilderness or do we take it in something that provides a little 
more access? As you know, wilderness doesn't include a bike or 
a mountain bike or a vehicle or a disabled----
    Senator Heinrich. The challenge with that is there is no 
place to bike to because it is at the end of the road where it 
abuts the existing wilderness area. The donation was actually 
made contingent on the land being added to the existing 
wilderness, and I have spoken to the landowner and they are not 
willing to make the donation under separate terms from that.
    So let's be clear: if you do not accept the donation, the 
reality is we are back to square one. We are where we were 
before with zero public access for hunting, zero public access 
for recreation. There is no Plan B for this. And I can tell 
you, as somebody who actually went out and tried to find 
easements that we could purchase into this area for over 10 
years, there is no alternative. It is either we get access for 
the first time or we go back to the only landlocked wilderness 
in the United States. And that is, clearly, not what my 
constituents desire.
    Secretary Zinke. Well, I don't yield to pressure, only 
higher principle. When someone comes to the table and says 
we're only going to give you this donation under these 
conditions and terms, that doesn't sound to me like a 
negotiation. That sounds like they dictated terms.
    Senator Heinrich. They did negotiate this with the BLM over 
the course of many years. At the time, the BLM was open to 
those terms. Now, there is a new Secretary. I understand that, 
but----
    Secretary Zinke. And we're open to negotiating so we have 
public access. So if they're willing to work with us on making 
sure that the public has access to it, then I'm sure we can 
come to an amenable solution on it. But to come to the table 
and say----
    Senator Heinrich. The irony of these terms is----
    Secretary Zinke. Under these terms and conditions only.
    Senator Heinrich. ----right now we do not have public 
access. Zero. And so, by looking a gift horse in the mouth, we 
are turning back the clock to where we were before.
    I can tell you if this does not get done by this fall, 
there will be an awful lot of people disappointed in 
Northeastern New Mexico who thought this was a slam dunk. You 
had the county commission. You had the local groups on board. 
You had the delegation on board. This is one of those few cases 
where everybody lines up on the same side and says, this is 
good for the community and we can grow our economy with this. 
Let's do it.
    Secretary Zinke. I'll work with you on it but define public 
access. Is it your definition of public access? Is it only you 
can walk through the wilderness without--either walk or 
horseback--or is it public access where it provides amenities 
like a parking lot for people that are, maybe, disabled or 
can't walk through----
    Senator Heinrich. It is easy enough to provide a parking 
lot under this arrangement, but you are not going to be able to 
provide mechanized access to the area that is designated as 
wilderness.
    I am all for additional access for mountain bikes, for 
other forms, but this is not the place. I mean, have you been 
there? The canyon walls go straight up on either side. There is 
no place to go to unless you are willing to put a pack on and 
it is worthwhile then because there are big mule deer, there 
are Barbary sheep, there are elk, there are turkey. It is some 
of the best habitat in northeastern New Mexico and right now, 
what I know is that there is zero, zero, zero public access.
    Secretary Zinke. I think we both agree that we should move 
forward on public access.
    The Chairman. Senator King.
    Senator King. Thank you. Before the witness, a couple of 
comments.
    I want to invite Senator Cassidy to join the climate change 
caucus and I want to use his charts the next time I am on the 
Floor talking about climate change. Although, I know in 
Louisiana part of the problem is subsidence rather than 
necessarily sea level rise. But that is coming.
    Also, Senator Daines, we are going to have to change the 
name of that park to the park formerly known as Glacier because 
there were 150 glaciers when the park was founded and there are 
now 26. They have retreated 39 percent in the last 50 years and 
that is accelerating. We just, kind of, take cognizance of what 
is happening. Our national parks are one of the, I guess, the 
canary in the coal mine and Glacier is probably the most 
prominent.
    Secretary Zinke, first I am not going to lobby you. I want 
to thank you for visiting our beautiful Katahdin Woods and 
Waters National Monument that is already having positive 
economic effects in our region. But I am not going to lobby 
you. I really want to thank you for going, sincerely.
    I once went on a Congressional trip and an old man in a 
foreign country said, ``I know why you're here.'' I said, ``Why 
is that?'' And he said, ``Because one day of seeing is better 
than 30 days of reading.''
    You went to see, and I deeply appreciate your committing. 
You met a commitment to me you made at the hearing to go to 
Maine, and I am just delighted that you did that. So I want to 
thank you for that.
    Secretary Zinke. It was a wonderful experience, and I'm 
sure you're going to be enthusiastic about the recommendation.
    Senator King. Well, that is as much as I can ask.
    Secretary Zinke. As well as the Governor, I've talked to 
the Governor, so I think we have a reasonable approach and a 
recommendation that all parties will be satisfied with.
    Senator King. I congratulate you on that and look forward 
to the recommendation.
    In terms of the cuts to the national parks, many people 
have talked about it. You mentioned that a substantial part of 
the cuts will take place in regional, in the bureaucracy if you 
will, as opposed to the individual parks. Are there cuts at 
individual parks that will hit the operating budgets?
    Secretary Zinke. On the reorganization, again, what I see 
is the front line of the specific parks are too short.
    In the case of the monument in Maine, there's only one 
superintendent there. You can add one superintendent plus, you 
know, a detailed person. And when you go up there, and clearly 
the infrastructure required there with bathrooms and signs and 
working together with the state--when you incorporate something 
under a public trust, in the Park Service or a monument, then 
there's also an obligation on our side to make sure that it is 
done right.
    Bears Ears, in that conversation, there is no doubt some 
antiquities there that are well-deserving of federal 
protection. But what I didn't see is, I didn't see any signs, I 
didn't see any bathrooms at the trailheads, I didn't see any 
parking lots.
    In one case, in Escalante, I saw a German van with three 
Germans in it with kayaks looking for the Grand Staircase 
which--there's no staircase by the way--this is not a kayak 
thing.
    But if we're going to assume the primary responsibility of 
preserving something, then we have to also assume the 
responsibility to make sure we preserve it and that's 
infrastructure, signage, monitoring and those things that are 
necessary to do that.
    Senator King. And in the individual parks, as we are 
looking around the country, whether it is Yellowstone or 
Olympia or Acadia in Maine, do you anticipate operational 
budget cuts or are you talking about simply regional 
administration cuts?
    Secretary Zinke. What I anticipate, I don't, individually, 
very doubtful, parks, probably we're--what I've done in the 
Headquarters is, as far as the hiring freeze, I maintained it 
in Washington and maintained it in Denver so we could push 
bodies to where they belong out in the front. And you'll see a 
movement to make sure we shore up and expand the front line.
    The regional scientists, they're all in the USGS, and that 
was a decision from a couple secretaries ago. What we're 
looking at is how to return the scientists back out to the 
field to where they do more field work rather than headquarters 
work.
    But there are some minor adjustments in the budget, but I 
think as we go through the process and coordinate with you on 
reorganization, what our goal is, is to make the parks not only 
whole, but get more assets on the front line and reduce the 
middle and upper management side.
    Senator King. In the Armed Services Committee we talk about 
tooth-to-tail. We are talking about more tooth and less tail, 
and I don't necessarily object to that point of view.
    A final question or final comment. One of the items in the 
budget, or in the plan, is a suspension of the advisory 
commissions to the national parks and they are under review. I 
cannot speak for other parks, but I can tell you that the 
advisory commission at Acadia in Maine is very important. It 
makes a great contribution. They are volunteer members. There 
are some administrative costs--I understand that is what we are 
talking about--but I think this is a case where the value to 
the Park System in terms of good relations with its neighbors 
outweighs the fairly minor savings from the administrative 
costs associated. So I commend to you, from personal 
experience, the value of the advisory commissions.
    Secretary Zinke. Well, and I have 220, which I was 
surprised at the number, and this is what I asked, you know, 
rather than going to individual advisory groups and say, well, 
I'm going to suspend this. I suspended them all with this 
caveat: tell me who is in your, on your board; tell me what 
you've done in the last year; tell me what you've done in the 
last five years; tell me what your budget is; and tell me what 
your goal is. And if you had an issue, they could ask for an 
exemption to meet.
    As far as Acadia they did not request an exemption yet, but 
it was really about two pages maximum because now I'm 
responsible for the 220 boards, to a degree, and I just want to 
know. And I would think the overwhelming number of boards do 
great things and it just was an opportunity to me to know who 
was on the board. I'll look through what their goals are, which 
I think is important, and then if I had any questions I could 
ask. But I assume that we'll have all the paperwork on those 
boards.
    If Acadia is meeting, which I understand they want to meet 
in the summer, all they have to do is put in a request for 
exemption and certainly I would understand that.
    Senator King. It sounds like the national park version of 
trust but verify.
    Secretary Zinke. Trust but verify. I just want to know, you 
know?
    We spend about $15 million which, on the scale of the 
overall budget is not much, but if you're a plumber, $15 
million is a lot of money.
    So as the steward of the taxpayers' dollars, I just want to 
know the great things the boards are doing, who is on the 
board, what they've done in the last year, what they've done in 
the last five years, and then I'll be glad to write them a card 
and say thank you for your service and then invite them to DC 
to talk to them.
    Senator King. Good. Thank you, Mr. Secretary.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator King. I appreciate you 
bringing up that question because I, too, have heard from a lot 
of folks back home. We have a couple advisory committees that 
are pretty important; one impacts the NPR-A in the 1002 area. 
There are two groups under the BLM, the NPR-A Working Group and 
the NPR-A Subsistence Advisory Panel. So, obviously, very key 
to what we are trying to do up North.
    Hearing your explanation, Mr. Secretary, about what your 
intent was in just conducting this review and how, if there is 
work that is underway, there is an opportunity for, again, 
those groups to be up and running and doing the work that I 
think we all recognize is important. But oversight is always 
appreciated around here.
    Let me go back to another issue relating to land 
conveyances. The BLM conducted an inventory at Congress' 
request last year looking into the contaminated lands that had 
been conveyed to Alaska Native Corporations and additional 
contamination that had been on lands pending conveyance. They 
have identified over 600 contaminated sites and the ownership 
is, kind of, a mixed bag here. But what we know is that these 
sites are contaminated and they need remediation.
    The Federal Government is moving very slowly and part of 
the problem is, we just do not have a single agency that is 
overseeing and coordinating the cleanup. So you have a 
situation where you have lands that are formally held by the 
Interior, Army Corps lands, you have FAA lands, you have DoD 
lands, and everybody is kind of pointing the finger saying, you 
be in charge. As a consequence, it is just not happening.
    Now BLM, we have had long discussions with them. They say 
that they cannot compel federal agencies to clean up these 
contaminated sites. But it seems to me that because of DOI's 
trust responsibility to Alaska Natives, it seems that at a 
minimum we ought to be able to get Interior to coordinate a 
working group of these responsible agencies so that we can get 
the cleanup started on 600 sites.
    Again, this is a different issue than the legacy well 
cleanups which you have already been briefed on up North. We 
are trying to cut through that backlog as well. But when you 
think about the situation right now, again, you have Alaska 
Natives that have not had the commitments under the Alaska 
Native Claims Settlement Act (ANCSA) fulfilled. You have not 
had the commitments to our Alaska Native Veterans fulfilled. 
And then on some of the lands where they did receive 
conveyances, they got contaminated lands. It is not a good 
deal. It is not right.
    So I would ask if you can have your team go back and see 
what they can do to work with us on how we can address this 
issue of contaminated lands. Maybe we need to look at whether 
Interior could allow ANCs to trade back contaminated lands for 
selections of new, clean lands. But I need to make some 
progress on this, and I am asking for your assistance on it.
    Secretary Zinke. Well, the good news, at least on the 
Alaska legacy wells, is I think we're down to 31 now as opposed 
to 50. By the end of 2018, I think we're going to be at 25 
wells in the legacy.
    But I share your frustration. And this is why we're looking 
at a reorganization based on a joint model of combatant 
commands because, you're absolutely correct, is that the 
different bureaus within the government agency, whether it's Ag 
or Interior or Army Corps of Engineers, don't work very well.
    The Chairman. Right.
    Secretary Zinke. And you can't task each other without 
going to the Secretary and we've created a bureaucracy that we 
can't get anything done.
    So we're looking at, quite frankly--and Alaska is going to 
be more of a joint model, joint management--rather than 
everybody reporting to their headquarters, reporting to a joint 
command. The same way we fight forest fires, similar to the way 
we fight combatant commanders, and then make sure we have a 
state liaison. We think that model is appropriate when we're 
looking at wildlife corridors, watersheds, cleanup and these 
areas that transcend one isolated bureau but are multi-bureau, 
or would be joint in this case.
    We think that that model is more appropriate and we're 
going to need to work with you to make that happen. Most of the 
authority relies on the Secretary, but there's some things that 
we go through, that will be required. No doubt we want to work 
with you anyway on it, but we're going to need your help in 
order to bring the ball to the field.
    The Chairman. Just so much of this is interagency 
coordination and it gets very frustrating, again, when you have 
one agency pointing the finger at the other one saying, you do 
it first. So we need to work with you on that.
    Let me turn to Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    Mr. Secretary, my first set of questions was about tribal 
affairs, and I have heard a great deal of concern from tribal 
leaders about the role that James Cason at the Department of 
the Interior is playing. Now during his time at the Department 
of the Interior during the Bush Administration he earned a 
reputation for his opposition to putting land into trust. And I 
am now hearing that land decisions that were previously made at 
the Assistant Secretary level will now be made by Mr. Cason. In 
fact, I have heard that Mr. Cason has been delegated a great 
deal of decision-making that normally is within the Secretary's 
purview.
    What is the scope of Mr. Cason's role at the Department? 
Does it include overseeing the Cobell Agreement and putting 
land into trust?
    Secretary Zinke. Well, I share your, well perhaps not, but 
to date I don't have my deputy. Of all the Senate-confirmed 
individuals, I didn't even have my deputy. So I have about 70 
appointments, 20 or so Senate-confirmed. And to date, I have no 
Senate-confirmed deputy. I have magnificent candidates, BIA 
included, but they're not in the office. Mr. Cason is my Acting 
Deputy at the moment, and he comes with a lot of experience 
from his previous tour in the Bush Administration.
    As you know, I think it was January 19th when I probably 
had an Interior eight or nine decisions based on trust coming 
in, I think I'm in court on two of them, on determinations of 
whether or not it's appropriate to take a trust in. So I would 
love to get a stable platform of--leadership.
    Senator Franken. Okay, I am hearing this across the whole 
Administration in terms of shortage of deputies, et cetera.
    I just want to ask you about your statements on the 
President's budget and whether they reflect a commitment to 
strengthen tribal sovereignty and support self-determination.
    Budget cuts of $371 million from the Bureau of Indian 
Affairs. Those of us who are on the Indian Affairs Committee, 
just know how woefully underfunded the tribes are in Indian 
Country and this, sort of, adds insult to injury. How exactly 
do these cuts support sovereignty and self-determination? And 
how can you build trust in Indian Country when you present a 
budget like this?
    Secretary Zinke. Well, I'll go back to the beginning: this 
is what a balanced budget looks like. We could ignore it.
    Senator Franken. There are other ways to balance budgets--
--
    Secretary Zinke. And----
    Senator Franken. ----and on the backs of the tribes, to me, 
is not the way to do it.
    Secretary Zinke. And they were to a degree, not across the 
board, some of the cuts were 8 percent, 11 percent, but this is 
what a balanced budget looks like.
    The fortunate thing, or unfortunate depending on how you're 
standing, is that you have a say on it. But in order to present 
a budget that balances, which was the President's charge----
    Senator Franken. I hear you and I am not going to argue 
with you because I want to change quickly to climate change.
    At a House Appropriations hearing last week you had an 
exchange on climate change with my Minnesota colleague, 
Representative Betty McCollum. You talked about glacial 
retreating in Glacier National Park saying, ``The glaciers 
started melting in Glacier Park right after the end of the last 
Ice Age.'' That is true, but you continued, ``It has been a 
consistent melt.''
    In fact, data released last month by the U.S. Geological 
Survey scientists, who work for you, show the glaciers in the 
park have shrunk by 40 percent in just the last 50 years. So we 
are not seeing a consistent melt. Melting is dramatically 
accelerating.
    I am concerned that our Secretary of the Interior, who is 
in charge of our nation's public lands, is unclear--and we have 
this in your confirmation hearing--I am concerned about whether 
you are clear about the magnitude of warming that is occurring 
and the backing out of the Paris agreement.
    I know I am running out of time.
    Can you tell me how much warming government scientists 
predict for the end of this century under a business-as-usual 
scenario?
    Secretary Zinke. Well, the Paris accord, in the President's 
and my judgment, it wasn't about climate change, it was about a 
bad deal. We spent $3 billion, $1 billion in cash.
    Senator Franken. Let me just--I know we are out of time, so 
can you just answer my question? Can you tell me how much 
warming government scientists predict for the end of this 
century under a business-as-usual scenario?
    Secretary Zinke. I don't think the government scientists 
can predict with certainty. There isn't a model that exists 
today that can predict today's weather given all the data.
    Senator Franken. Well, they predict a range and you said we 
have to go with the science--that is what you said during the 
early part of this hearing--you said, we have to go with the 
science. And there is agreement among climate scientists about 
the range of what we would have in warming by the end of the 
century. Do you know what that range is?
    Secretary Zinke. If everyone adhered to the Paris climate 
accord, that change would be roughly 0.2 degrees which is 
insignificant. And yet, people ignore the fact that China----
    Senator Franken. No, no, no.
    No. No. No.
    Secretary Zinke. That was an MIT study. We can give you----
    Senator Franken. That was what the change would be under 
the period covered by the agreement. That is not what the 
change would be in the end of the century if they continued it. 
So you're really mixing apples and oranges.
    I just want you to answer the question that I asked you. 
That is all I want you to do. Can you tell me how much warming 
government scientists, working for our government, predict for 
the end of the century under a business-as-usual scenario?
    Secretary Zinke. Can you tell me, sir, whether or not China 
increased its CO2 between now and 2030 under the agreement and 
by what? But I will be glad to give you that answer.
    Senator Franken. And that answer is?
    The Chairman. Senator Franken.
    Secretary Zinke. I will be glad to give you that answer.
    Senator Franken. So you will give it in writing?
    Secretary Zinke. In writing.
    Senator Franken. Thank you.
    The Chairman. Thank you.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    You said a number of times in response to our questions 
that this budget is what a balanced budget looks like. So does 
this budget balance resource extraction with conservation?
    Secretary Zinke. The budget balances fiscally in a 10-year 
program. The budget does not favor one energy solution over 
another, nor does it favor extraction over non-extraction--it 
doesn't favor. It's a budget that produces a stewardship of our 
public lands.
    Senator Hirono. On the other hand, you also talked about 
the need to raise revenues and that one of the ways that you 
would raise revenues is to increase what we get, what you get, 
from resource extraction. And so, it does appear as though, 
from a very pragmatic standpoint, that that is one of the ways 
that you are going to create additional funds to keep the 
Interior Department going.
    I would say that if we look at this budget it probably 
reflects more of a bend toward resource extraction over 
conservation.
    Let me give you an example. When you were here for your 
confirmation hearings you were a big supporter, and when I met 
with you also prior to that hearing, you were a big supporter 
of the Land and Water Conservation Fund (LWCF). That fund is 
supposed to be a conservation program that is funded by oil 
drilling revenues and yet, this fund is cut by 84 percent. That 
is an example of how we are moving toward extraction as opposed 
to conservation.
    The reason that I am particularly interested in the 
strength of the Land and Water Conservation Fund is that it is 
a very bipartisan-supported fund and Hawaii has submitted a 
proposal that obtains funding from the LWCF. Our proposal is 
called Island Forests at Risk and it protects water resources, 
improves ecosystems, et cetera. So, has your commitment to the 
LWCF changed?--because this fund is cut by 84 percent in the 
President's budget, which you support now.
    Secretary Zinke. Well, it's funny that the source of LWCF 
is offshore oil and gas. So when we drill offshore for oil and 
gas we put more into the fund. What is cut from the budget is 
more land acquisition in the LWCF.
    Senator Hirono. Yes.
    Secretary Zinke. But as you know the LWCF Fund itself has 
about $18 billion over a period of time that has not been 
appropriated. And so, I think we're supportive of looking at 
LWCF expansion on onshore too. Some of that is to provide some 
infrastructure relief.
    It's hard to fathom how you would take land in if you can't 
afford to maintain it. I think we should look at ways to 
maintain when we have our conservation easements and all the 
good things the Land and Water Conservation Fund has provided. 
We need to make sure we have a revenue stream to make sure that 
we can maintain those holdings.
    Senator Hirono. Well, in the case of our proposal, Island 
Forests at Risk, it is for the acquisition of properties that 
the private landowners--because we do not have any national 
forests in Hawaii, we are one of ten states that do not. We 
rely on other kinds of resources from the Federal Government to 
support the privately- and state-owned forest areas. And so, 
there are private entities that have been waiting for years, 
and we finally got into the pipeline for support from the LWCF 
and suddenly that pipeline has been closed.
    Now, I would like to understand that. I conclude that you 
do support the President's budget for Interior at this point 
with all of the cuts that many of my colleagues have pointed 
out.
    Secretary Zinke. I do support the budget and I commend the 
President for actually having the focus on providing the first 
step of what a balanced budget would look like. That is a 
tremendous change from the proposition that having a budget 
that doesn't balance really doesn't matter. So at least, if 
nothing else, it provides a good conversation.
    Senator Hirono. Excuse me, I am running out of time--
because a balanced budget is in the eye of the beholder, I 
would say, because certain other things that are very important 
to many of us will be cut. Did you push back on any of the cuts 
that are reflected in the budget for Interior?
    Secretary Zinke. There were certain areas in the budget 
that I think should be greater prioritized and not----
    Senator Hirono. Such as?
    Secretary Zinke. I've always been a supporter of LWCF 
although, again, the source is offshore oil and gas for it.
    I think that our parks are a treasure, but what surprised 
me about when you become the Secretary and you open up the 
budget is how much revenue we lost. You know, that's a concern 
to me because revenue can pay for a lot of things. If you have 
money in the bank, then a lot of these problems and programs 
and things and the hardship doesn't have to occur.
    The other thing that is interesting is where we spend our 
money--$5.5 billion worth of grants. Most of the grants are 
absolutely appropriate and good, but looking at it, a lot of 
money was going outside of other things while our 
infrastructure was hurting.
    Personnel-wise, we have good people in the Department of 
the Interior, but we're really heavy on our upper bureaucracy. 
We have about 6,500 people in DC.
    Senator Hirono. Yes, you mentioned that. But I was 
particularly interested if there were any particular programs 
that you really pushed back on cuts to, and it sounds as though 
the Land and Water Conservation Fund, which was something that 
you very much supported, we need to get that back, I would say, 
on track.
    Thank you, Madam Chair.
    Senator Cantwell [presiding]. Thank you.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Mr. Secretary, I am always struck with Senator King's 
wisdom, not to mention his measured demeanor, and he said 
something that stuck with me when he was having a conversation 
with you today. He said, ``One day of seeing is often better 
than 30 days of reading.''
    And so, I ran back to the office--and I will leave this map 
with you--but it gives a little bit of impression of the 
Sabinoso because it shows how the donation property is really 
just the gateway to the existing wilderness that, right now, is 
in a sea of public land--or private land I should say--which is 
why public access is not possible.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    It is my understanding that there is an outside-the-
wilderness boundary location where the local BLM and some of 
the local advocates have hoped to grade and create a parking 
lot for access into the entire canyon system.
    But I thought, given that you said while I was off at a 
vote that you were coming out to New Mexico, what might really 
help for both of us is to see it on the ground. And so, I 
wanted to extend that invitation and see if you might be 
interested in seeing the location on the ground so that we can 
have, sort of, a common place to start in terms of where this 
goes.
    Secretary Zinke. I would be honored to accept your 
invitation. And I will be out there in--one thing good about 
this job is you see a lot of beautiful country and you meet a 
lot of great, great people. I'll commit to go out there, and 
I'll commit to work with you on it.
    Senator Heinrich. Great. That is very much appreciated. The 
first time I went in there it was on horseback because that was 
the most effective way to get in and out.
    Secretary Zinke. And you know I love horses.
    Senator Heinrich. I understand you know something about 
that mode of transit.
    I wanted to go back just for a moment to Bears Ears. You 
said people should see it for themselves and I completely 
concur with that. I was actually in Bears Ears just a few weeks 
ago with my family over spring break. I used to have an 
outfitter guide permit in that area through the BLM when I was 
running educational outdoor expeditions. And you said we have 
to follow the law. I am curious if, as part of your process, 
you have mapped out the locations of the antiquities and the 
objects that were in that proclamation over the landscape of 
the current boundary so as to know how and where it might be 
adjusted?
    Secretary Zinke. Yeah, we're in the process of doing that. 
There are, obviously, high density ones that are easily 
recognizable, and there are ones that aren't. So we're working 
with all parties to go through it.
    But the recommendation was this--we think that the 
antiquities can be identified, segregated and the borders can 
be revised. But to your point, I know you're very appreciative 
and supportive of our wilderness. What happens when you put a 
proclamation with those proclamations in management over the 
top of the wilderness?
    Senator Heinrich. Sure.
    Secretary Zinke. Because as you know, wilderness in some 
cases can be more stringent in its management than a 
proclamation. There are areas in there and within, there's a 
Forest Service or there's a U.S. Forest in there, there's a 
monument----
    Senator Heinrich. Up around Elk Ridge in Bears Ears--
literally Bears Ears--the Forest Service side. I am familiar 
with that country.
    Secretary Zinke. There's also areas that are probably 
better suited in the--and the request was this, the request 
from Congress, to examine a territory of the areas within it to 
see whether they're more appropriate with a national recreation 
area or a national conservation area because there's difficulty 
to identify an object in those areas.
    Senator Heinrich. I am not trying to cut you off, I am just 
a little short on time here.
    I would point to the example of Bandolier where we have 
both a monument and a wilderness within the monument that is 
consistent with the proclamation. It certainly can be done.
    One of the things I am concerned about is the importance of 
not looking at the Antiquities Act just for the antiquities as 
objects. Teddy Roosevelt was very clear when he created Mount 
Olympus, for example, where the object to be protected was a 
scientific object. It was the Roosevelt Elk. This proclamation 
is very clear in calling out the elk and the mule deer and the 
bighorn sheep as important objects within the cultural context 
of that monument as well. I hope we can make sure that we take 
a look at those as well as the cultural antiquities which are 
clearly important as well.
    Senator Cantwell. Thank you. Thank you, Senator Heinrich.
    Secretary Zinke, I had a couple of questions for you. I 
wanted to go back to this issue of the Methane Rule, but I 
wanted to ask first about hiring for the Manhattan Project 
National Historical Park in the Tri-Cities area. Are you 
holding up hiring on that position? Is that part of your----
    Secretary Zinke. No, overall what I've done is kept the 
hiring freeze in Washington in the metropolitan area and in 
Denver, our two largest areas, and tried to fill the gaps out 
in the field with that.
    On GS11, I'm sorry, GS12 and above, they just have to get a 
waiver. But I released the hiring freeze on GS11 or GS12 and 
below and with a waiver so we're not holding anything up. But 
what we're trying to do is we're trying to fill some of the 
positions from Denver and Washington with qualified individuals 
first.
    Senator Cantwell. So will you be moving forward on hiring 
for the Manhattan Project park? If you do not know today, you 
can get back to me on that.
    Secretary Zinke. Yeah, I'll get back. I don't think we're 
holding it up, but I'll get back to you.
    Senator Cantwell. Well, it is a new park and to your point, 
if you are saying you want the front line to be manned, then 
this is the front line, but it is a new joint DOE/Interior 
effort. So we----
    Secretary Zinke. Well, and we are also concerned about some 
of our other holdings when you only have one individual. 
Katahdin, it has one supervisor and a monument and then they 
have a detail. So it's really about 1.5 FTXs, or FTEs, up 
there.
    I'm similarly concerned across-the-board on the front line. 
If it's our holding then we need to have a responsibility to 
make sure that the front line, at least, is protected from----
    Senator Cantwell. Well, this is a new front line for sure. 
It definitely will add revenue, I guarantee you because it's 
great, I mean, from a regional perspective, but you can get 
back to me on it because I know it might not be something you 
came prepared this morning to address.
    Okay, back to the Methane Rule. Here is the issue. Congress 
has said this is the law and we want to know how you are 
enforcing it. You were saying, ``Oh, I'm suspending that 
rule.'' Well, if you want to suspend that rule you have to go 
through the Administrative Procedure Act, and the 
Administrative Procedure Act is about proposing a change and 
then having public comment on it before it is finalized. Are 
you telling me that during this process you are going to make 
sure that the current law is implemented?
    Secretary Zinke. We are looking at assessing how to 
implement it because, as you know, it's a little problematic 
exactly on the law which was part of the issue on the methane 
law itself, why it was challenged. I'm going to challenge the 
court with it and we're proceeding.
    My intention, so you know, is we're going to rewrite the 
rule and go through the complete public process on it because 
both you and I agree on this issue that flaring is a waste. I 
think from a steward perspective, I think wasting a public 
asset--which is methane--is just wasteful. So we have to 
incentivize collection systems and make sure that our public 
asset is not wasted.
    Senator Cantwell. So you are going to talk to technology 
people in the meantime about how you can stop the waste in the 
flaring in the ensuing----
    Secretary Zinke. Yes, ma'am. We're talking to all sides on 
that, as well it's part of the royalty issue too. The 
collection of royalties, you know, on that side, because that's 
revenue in the door. You know, how to do it effectively, how to 
not incur undue costs, but how to make sure that we're all on 
the same page about where we're going to go to make sure the 
law is enforced and we do it by the numbers and by the book.
    Senator Cantwell. But you are not going to spend your time 
for the next six months dragging your feet on implementation?
    Secretary Zinke. Ma'am, I don't drag my feet. I just, I 
don't operate that way. As far as the law goes, I support the 
law, as we all should, that's my obligation to do so.
    Senator Cantwell. Alright, well I appreciate that, and we 
will definitely be following up.
    You know, I had this unusual experience when I got elected 
to the Senate. John Ashcroft, a nominee before the Judiciary 
Committee--I asked him this very question. I said, ``You're 
going to be the Attorney General. The last Administration just 
finished the roadless area rule. Are you going to implement it 
or are you going to fight it because you're now going to have a 
new boss?'' He said, ``If it's the rule of law, I will enforce 
it.'' And that is what he did. Now, I will admit there were 
times when I thought that he lagged in enforcing that as a law 
and we called him out on it. I just want you to know I will be 
doing the same here because we certainly feel that this waste 
should not be at the taxpayer expense, but I thank you for 
saying you will work to implement it.
    Thank you.
    The Chairman [presiding]. Thank you, Senator Cantwell.
    Mr. Secretary, I do have some additional questions. One 
relates to mineral security, understanding what it is that we 
have. You mentioned that with the 1002 and up north in the 
North Slope, it is important to know what we have an inventory. 
I have a question relating to that as well as to USGS and 
surveying natural hazards and specifically to the earthquake 
monitors that are slated to be decommissioned as well as 
volcano monitors in the state.
    Unfortunately, we do not have consent to waive the two-hour 
rule, so now that the hour of 12 o'clock is upon us, I am not 
allowed to continue the hearing. You get off the hook that way, 
but I would certainly hope that you can provide me with some 
updates on not only these two areas, but some of the others.
    I would imagine that we will have other colleagues that 
will be submitting questions for the record who were not able 
to be here this morning.
    I thank you for, not only being here, but I thank you for 
your leadership. I hear very clearly your request to this 
Committee to send you help. We would like to get your deputy up 
to you. He has moved out of the Committee, but we need to get 
him moved through the Floor and we need to get the other 
members of your team through that process. You are working 
hard, but you need your team with you, and know that we are 
committed to making that happen just as rapidly as we possibly 
can.
    With that, we thank you for your leadership. Thank you for 
being here this morning. Have a great afternoon.
    The Committee stands adjourned.
    [Whereupon, at 12:05 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------     
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




</pre></body></html>
